Department of Homeland Security
   Ofﬁce of Inspector General

             Information Technology Management 

               Letter for the U.S. Citizenship and 

            Immigration Services Component of the 

            FY 2010 DHS Financial Statement Audit
 





OIG-11-74                                              April 2011
                                                                          Office ofInspector General

                                                                          U.S. Dep(lrtmellt ofHome/(llld
                                                                          Security
                                                                          Washington, DC 20528




                                                                   Homeland
                                                                   Security
                                       APR 13 2011


                                            Preface

The Department of Romeland Security (DRS) Office ofInspector General (OIG) was established
by the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector
General Act of1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report presents the information technology (IT) management letter for the FY 2010 U.S.
Citizenship and Immigration Services (USCIS) component of the DRS financial statement audit
as of September 30, 2010. It contains observations and recommendations related to information
technology internal control that were summarized in the Independent Auditors' Report dated
November 12,2010 and presents the separate restricted distribution report mentioned in that
report. The independent accounting firm KPMG LLP (KPMG) performed the audit procedures
at the USCIS component in support of the DRS FY 2010 financial statements and prepared this
IT management letter. KPMG is responsible for the attached IT management letter dated March
18,2011, and the conclusions expressed in it. We do not express opinions on DRS' financial
statements or internal control or conclusion on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                   ~4v
                                   Fra~ rt:ffl'
                                     Assistant Inspector General
                                     Information Technology Audits
                                  KPMG LLP
                                  2001 M Street, NW
                                  Washington, DC 20036-3389




March 18, 2011

Inspector General
U.S. Department of Homeland Security

Chief Information Officer and
Chief Financial Officer
U.S. Citizenship and Immigration Services

Ladies and Gentlemen:
We were engaged to audit the balance sheet of the U.S. Department of Homeland Security (DHS or
Department), as of September 30, 2010 and the related statement of custodial activity for the year then
ended (herein after referred to as “financial statements”). We were also engaged to examine the
Department’s internal control over financial reporting of the balance sheet as of September 30, 2010 and
the statement of custodial activity for the year then ended. We were not engaged to audit the statements
of net cost, changes in net position, and budgetary resources as of September 30, 2010 (hereinafter
referred to as “other fiscal year (FY) 2010 financial statements”), or to examine internal control over
financial reporting over the other FY 2010 financial statements.
Because of matters discussed in our Independent Auditors’ Report, dated November 12, 2010, the scope
of our work was not sufficient to enable us to express, and we did not express, an opinion on the financial
statements or on the effectiveness of DHS’ internal control over financial reporting of the balance sheet as
of September 30, 2010, and related statement of custodial activity for the year then ended. Additional
deficiencies in internal control over financial reporting, potentially including additional material
weaknesses and significant deficiencies, may have been identified and reported had we been able to
perform all procedures necessary to express an opinion on the financial statements or on the effectiveness
of DHS’ internal control over financial reporting of the balance sheet as of September 30, 2010, and
related statement of custodial activity for the year then ended; and had we been engaged to audit the other
FY 2010 financial statements, and to examine internal control over financial reporting over the other FY
2010 financial statements.
A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct
misstatements on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance. A material weakness is a deficiency, or a combination of
deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.
The United States Citizenship and Immigration Services (USCIS) is a component of DHS. During our
audit engagement, we noted certain matters in the areas of information technology (IT) configuration
management, access controls, segregation of duties, and security management with respect to USCIS’
financial systems information technology (IT) general controls, which we believe contribute to an IT
material weakness at the DHS level. These matters are described in the IT General Control Findings and
Recommendations section of this letter.




   Information Technology Management Letter for the USCIS Component of the FY 2010 DHS

                                Financial Statement Audit

                                    KPMG LLP is a Delaware limited liability partnership,
                                    the U.S. member firm of KPMG International Cooperative
                                    (“KPMG International”), a Swiss entity.
The material weakness described above is presented in our Independent Auditors’ Report, dated
November 12, 2010. This letter represents the separate limited distribution letter mentioned in that report.
The control deficiencies described herein have been discussed with the appropriate members of
management, and communicated through a Notice of Finding and Recommendation (NFR).
Because of its inherent limitations, internal control over financial reporting may not prevent, or detect and
correct misstatements. Also, projections of any evaluation of effectiveness to future periods are subject to
the risk that controls may become inadequate because of changes in conditions, or that the degree of
compliance with the policies or procedures may deteriorate. We aim to use our knowledge of USCIS
gained during our audit engagement to make comments and suggestions that are intended to improve
internal control over financial reporting or result in other operating efficiencies. We have not considered
internal control since the date of our Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key USCIS financial systems and IT infrastructure within the scope of our engagement to
audit the FY 2010 DHS financial statements in Appendix A; a listing of the FY 2010 IT Notices of
Findings and Recommendations (NFR) at USCIS din Appendix B; and the status of the prior year NFRs
and a comparison to current year NFR’s at USCIS in Appendix C. Our comments related to certain
additional matters have been presented in a separate letter to the Office of Inspector General and the
USCIS Chief Financial Officer.

USCIS’ written response to our comments and recommendations has not been subjected to auditing
procedures and, accordingly, we express no opinion on it.

This communication is intended solely for the information and use of DHS and USCIS management,
DHS Office of Inspector General, Office of Management and Budget (OMB), U.S. Government
Accountability Office, and the U.S. Congress, and is not intended to be and should not be used by anyone
other than these specified parties.

Very truly yours,




   Information Technology Management Letter for the USCIS Component of the FY 2010 DHS
 

                                Financial Statement Audit
 

                              Department of Homeland Security
 

                     United States Citizenship and Immigration Services
 

                          Information Technology Management Letter
                                     September 30, 2010




                INFORMATION TECHNOLOGY MANAGEMENT LETTER
                                      TABLE OF CONTENTS
                                                                                                   Page
Objective, Scope, and Approach 	                                                                    1
 



Summary of Findings and Recommendations 	                                                           2
 



IT General Control Findings and Recommendations 

       Configuration Management                                                                     3


       Access Controls                                                                              3


       Segregation of Duties                                                                        4


       Security Management                                                                          4
 



Application Control                                                                                 6


Management Comments and OIG Response                                                                6


                                            APPENDICES
 

Appendix                                           Subject                                         Page



   A	 	     Description of Key USCIS Financial Systems and IT Infrastructure within the Scope of    7
 

            the FY 2010 DHS Financial Statement Audit Engagement 

   B	 	     FY 2010 Notices of IT Findings and Recommendations at USCIS                             10
 

            �    Notice of Findings and Recommendations – Definition of Severity Ratings            11
 

   C        Status of Prior Year Notices of Findings and Recommendations and Comparison to          19
 

            Current Year Notices of Findings and Recommendations at USCIS
 

   D        Management Comments                                                                     21
 





Information Technology Management Letter for the USCIS Component of the FY 2010 DHS
                             Financial Statement Audit
                                Department of Homeland Security
 

                       United States Citizenship and Immigration Services
 

                            Information Technology Management Letter
                                       September 30, 2010

                            OBJECTIVE, SCOPE, AND APPROACH


In connection with our engagement to audit DHS’ balance sheet as of September 30, 2010 and the related
statement of custodial activity for the year then ended, we performed an evaluation of information
technology general controls (ITGC) at USCIS, to assist in planning and performing our audit. The DHS –
Immigration and Customs Enforcement (ICE) hosts key financial applications for USCIS. As such, our
audit procedures over information technology (IT) general controls for USCIS included testing of the
ICE’s Active Directory\Exchange (ADEX) network and the Federal Financial Management System
(FFMS) policies, procedures, and practices, as well as USCIS policies, procedures and practices at USCIS
Headquarters.


The Federal Information System Controls Audit Manual (FISCAM), issued by the Government
Accountability Office (GAO), formed the basis of our ITGC evaluation procedures. The scope of the
ITGC evaluation is further described in Appendix A. FISCAM was designed to inform financial auditors
about IT controls and related audit concerns to assist them in planning their audit work and to integrate
the work of auditors with other aspects of the financial audit. FISCAM also provides guidance to IT
auditors when considering the scope and extent of review that generally should be performed when
evaluating general controls and the IT environment of a federal agency. FISCAM defines the following
five control functions to be essential to the effective operation of the ITGC environment.


�	 Security Management (SM) – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.
�	 Access Control (AC) – Controls that limit or detect access to computer resources (data, programs,
   equipment, and facilities) and protect against unauthorized modification, loss, and disclosure.
�	 Configuration Management (CM) – Controls that help to prevent unauthorized changes to information
   system resources (software programs and hardware configurations) and provides reasonable assurance
   those systems are configured and operating securely and as intended.
�	 Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to manage who can control key aspects of computer-related operations.
�	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our ITGC audit procedures, we also performed technical security testing for key network
and system devices, as well as testing over key financial application controls in the ICE environment.
The technical security testing was performed both over the Internet and from within select ICE facilities,
and focused on test, development, and production devices that directly support USCIS general support
systems. In addition to testing ICE’s general control environment, we tested controls around the FFMS
migration to the Clarksville Data Center (DC2) in Clarksville, VA.




   Information Technology Management Letter for the USCIS Component of the FY 2010 DHS 

                                Financial Statement Audit 

                                          Page 1 

                                Department of Homeland Security
 

                       United States Citizenship and Immigration Services
 

                            Information Technology Management Letter
                                       September 30, 2010

                  SUMMARY OF FINDINGS AND RECOMMENDATIONS

During fiscal year (FY) 2010, USCIS took corrective action to address some prior year IT control
deficiencies. For example, USCIS made improvements over ADEX system administrator recertification,
physical controls at the Manassas Data Center, and access controls over security software. However,
during FY 2010, we continued to identify IT general control deficiencies that could potentially impact
USCIS’s financial data. The most significant findings from a financial statement audit perspective were
related to the FFMS configuration and patch management, and deficiencies within Computer Linked
Application Information Management System (CLAIMS) 3 LAN and CLAIMS 4 user account
management. Collectively, the IT control deficiencies limited USCIS’s ability to ensure that critical
financial and operational data were maintained in such a manner to ensure confidentiality, integrity, and
availability. In addition, these control deficiencies negatively impacted the internal controls over USCIS
financial reporting and its operation and we consider them to contribute to a material weakness at the
Department level under standards established by the American Institute of Certified Public Accountants
(AICPA). In addition, based upon the results of our test work, we noted that ICE did not fully comply
with the requirements of the Federal Financial Management Improvement Act (FFMIA).

Of the 14 findings identified during our FY 2010 testing, three were new IT findings. These findings
represent control deficiencies in four of the five FISCAM key control areas: configuration management,
access controls, segregation of duties, and security management. Specifically, these control deficiencies
include: 1) a lack of strong password management and audit logging within the financial applications, 2)
security management issues involving staff security training and exit processing procedure weaknesses, 3)
inadequately designed and operating configuration management, and 4) the lack of effective segregation
of duties controls within financial applications. These control deficiencies may increase the risk that the
confidentiality, integrity, and availability of system controls and USCIS financial data could be exploited
thereby compromising the integrity of financial data used by management as reported in DHS’
consolidated financial statements. While the recommendations made by KPMG should be considered by
USCIS, it is the ultimate responsibility of USCIS management to determine the most appropriate
method(s) for addressing the control deficiencies identified based on their system capabilities and
available resources.




   Information Technology Management Letter for the USCIS Component of the FY 2010 DHS 

                                Financial Statement Audit 

                                          Page 2 

                                Department of Homeland Security
 

                       United States Citizenship and Immigration Services
 

                            Information Technology Management Letter
                                       September 30, 2010


            IT GENERAL CONTROL FINDINGS AND RECOMMENDATIONS

Findings:
During the FY 2010 DHS financial statement audit, we identified the following USCIS IT and financial
system control deficiencies that in the aggregate significantly contribute to the material weakness at the
Department level.

Configuration Management
�	 Security configuration management control deficiencies on ADEX. These control deficiencies
   included default installation and configuration settings on the Cisco routers.
�	 Security configuration management over FFMS included:
            �	 Network and servers were installed with default configuration settings and protocols.
            �	 Mainframe production databases were installed and configured without baseline security
               configurations.
            �	 Servers have inadequate patch management.


Access Control

�	 The following account management control deficiencies over ADEX, CLAIMS 3 LAN, and CLAIMS
   4:
            �	 The lack of recertification of CLAIMS 3 LAN and CLAIMS 4 system users.
            �	 Inefficient definition and documentation of CLAIMS 3 LAN and CLAIMS 4 access roles
               were noted.
            �	 User access is not documented and maintained for ADEX, CLAIMS 3 LAN, and
               CLAIMS 4.
            �	 CLAIMS 4 password configurations do not meet DHS requirements.
            �	 Terminated personnel still have active user accounts within CLAIMS 3 LAN and
               CLAIMS 4.
�	 Lack of processes in place for sanitization of equipment and media.
�	 Ineffective safeguards over physical access to sensitive facilities and resources at the DC2 and the
   USCIS Vermont Service Center.
�	 Lack of policies and procedures for maintaining and reviewing CLAIMS 3 LAN and CLAIMS 4 audit
   logs.




   Information Technology Management Letter for the USCIS Component of the FY 2010 DHS 

                                Financial Statement Audit 

                                          Page 3 

                                 Department of Homeland Security
 

                        United States Citizenship and Immigration Services
 

                             Information Technology Management Letter
                                        September 30, 2010

Segregation of Duties
�	 Segregation of duties controls were not enforced through access authorizations in CLAIMS 4.

Security Management
�	 Procedures for transferred/terminated personnel exit processing are not finalized.
�	 IT Security training is not mandatory nor is compliance monitored.


Recommendations:
We recommend that the USCIS Chief Information Officer (CIO) and Chief Financial Officer (CFO), in
coordination with the DHS Office of Chief Financial Officer and the DHS Office of the Chief Information
Officer, make the following improvements to USCIS’s financial management systems and associated
information technology security program.


For Configuration Management
Unless specifically noted where USCIS needs to take specific corrective action, we recommend that the
USCIS CIO and CFO, in coordination with the ICE Office of Chief Financial Officer and the ICE Office
of the Chief Information Officer, make the following improvements to ICE’s information technology:
�	 Ensure that password configuration settings are properly and effectively applied.
�	 Implement the appropriate FFMS database and network server patches in order to ensure patch
   management compliance.

For USCIS, we recommend
�	 Monitor the ICE Mission Action Plan (MAP) for the ADEX and FFMS vulnerabilities that impact
   USCIS operations.

For Access Controls
�	 Finalize the CLAIMS 3 LAN and CLAIMS 4 account management procedures that address account
   identification, set-up, recertification, and termination and access request form maintenance.
�	 Review CLAIMS 3 LAN accounts that have been inactive for 45 days and remove users on the Office
   of Human Capital and Training (HCT) attrition bi-weekly list.
�	 Finalize the CLAIMS 3 LAN Account Management procedures that address account identification,
   set-up, recertification, and termination and access request form maintenance.
�	 Recertify CLAIMS 3 LAN accounts and ensure a current and valid access request form is maintained.
�	 Finalize and issue the USCIS management directive on Information System Account management.
�	 Evaluate the risk imposed on the CLAIMS 4 system by not modifying the password history from 6 to
   8. If it is deemed that the risk is low, USCIS should submit a Waivers and Exceptions Request Form
   to the DHS Chief Information Security Officer (CISO). If the risk is deemed medium or high, USCIS
   should implement the password changes to meet DHS requirements.

   Information Technology Management Letter for the USCIS Component of the FY 2010 DHS 

                                Financial Statement Audit 

                                          Page 4 

                               Department of Homeland Security
 

                      United States Citizenship and Immigration Services
 

                           Information Technology Management Letter
                                      September 30, 2010

�	 Finalize and implement the CLAIMS 4 Account Management Procedures that address account
   identification, set-up, recertification, and termination and access request form maintenance.
�	 Finalize the USCIS Media Protection Management Directive and the USCIS Media Protection
   Procedures and ensure they are readily available to USCIS personnel.
�	 Finalize the Media Protection Procedures for the Vermont Service Center (VSC). In addition, USCIS
   should test VSC’s Office of Information Technology (OIT) Visitor Policy and Procedures to ensure
   they address physical security.
�	 Finalize the USCIS Audit and Accountability Management Directive and implement enterprise audit
   logging software.


For Segregation of Duties
�	 Finalize the CLAIMS 4 account management procedures that address account identification, set-up,
   recertification, and termination and access request form maintenance.

For Security Management
�	 Implement and enforce exit clearance policies and procedures to be followed in the event of transfer,
   termination or separation of federal and contract personnel. Resources should be made available to
   communicate the updated procedures to personnel, train mission support staff who have a critical role
   in the updated process, and enforce and monitor compliance with the exit procedures and policies.
�	 Update and provide IT security training materials utilized during the New Employee Orientation
   Program (NEOP).
�	 Maintain a monthly report of all new hires and the information security awareness training date
   completion.
�	 Continue utilization of the Department of Status (DOS) Computer Security Awareness Training
   (CSAT) tool to provide annual information security awareness training to all USCIS employees.




   Information Technology Management Letter for the USCIS Component of the FY 2010 DHS 

                                Financial Statement Audit 

                                          Page 5 

                               Department of Homeland Security
 

                      United States Citizenship and Immigration Services
 

                           Information Technology Management Letter
                                      September 30, 2010




                                   APPLICATION CONTROLS

As a result of the control deficiencies noted above in the Information Technology General Controls,
manual compensating controls were tested in place of application controls.



                    MANAGEMENT COMMENTS AND OIG RESPONSE


The OIG received written comments on a draft of this report from USCIS management. Generally,
USCIS management agreed with all of our findings and recommendations. USCIS management has
developed a remediation plan to address these findings and recommendations. A copy of the comments is
included in Appendix D.


OIG Response
We agree with the steps that USCIS management is taking to satisfy these recommendations.




   Information Technology Management Letter for the USCIS Component of the FY 2010 DHS 

                                Financial Statement Audit 

                                          Page 6 

                                                                            Appendix A
                          Department of Homeland Security
 

                 United States Citizenship and Immigration Services
 

                      Information Technology Management Letter
                                 September 30, 2010




                                   Appendix A


Description of Key USCIS Financial Systems and IT Infrastructure
 within the Scope of the FY 2010 DHS Financial Statement Audit




 Information Technology Management Letter for the USCIS Component of the FY 2010 DHS 

                              Financial Statement Audit 

                                        Page 7 

                                                                                           Appendix A
                               Department of Homeland Security
                      United States Citizenship and Immigration Services
                           Information Technology Management Letter
                                      September 30, 2010

CLAIMS 3 Local Area Network (LAN)
CLAIMS3 LAN provides USCIS with a decentralized, geographically dispersed LAN based mission
support case management system, with participation in the centralized CLAIMS 3 Mainframe data
repository. CLAIMS 3 LAN supports the requirements of the Direct Mail Phase I and II, Immigration Act
of 1990 (IMMACT 90) and USCIS forms improvement projects. The CLAIMS 3 LAN is located at the
following service centers and district offices: Nebraska, California, Texas, Vermont, Baltimore District
Office, and Administrative Appeals Office. CLAIMS 3 executes on Dell 220 S (EMC), RAID Controller,
Disk Storage servers protected by firewalls, and Windows 2003, MS Sp2 as the operating system and
Pervasive database software and is used to enter and track immigration applications. CLAIMS 3 LAN
interfaces with the following systems:
�   Citizenship and Immigration Services Centralized Oracle Repository (CISCOR)
�   CLAIMS 3 Mainframe
�   Integrated Card Production System (ICPS)
�   CLAIMS 4
�   E-filing
�   Benefits Biometric Support System (BBSS)
�   Refugee, Asylum, and Parole System (RAPS)
�   National File Tracking System (NFTS)
�   Integrated Card Production System (ICPS)
�   Customer Relationship Interface System (CRIS)
�   USCIS Enterprise Service Bus (ESB)

CLAIMS 4
The purpose of CLAIMS 4 is to track and manage naturalization applications. Claims 4 is a client/server
application. CLAIMS 4 runs off of Sunfire 890, 490, Solaris 9, and Oracle 9iR2 servers with Oracle 9i,
Windows NT, and Windows 2000 Server operating systems and are protected by firewalls. The central
Oracle Database that runs off Oracle Enterprise 9i is located in Washington, DC while application servers
and client components are located throughout USCIS service centers and district offices. CLAIMS 4
interfaces with the following systems:
�   Central Index System (CIS)
�   Reengineered Naturalization Automated Casework System (RNACS)
�   CLAIMS 3 LAN and Mainframe
�   Refugee, Asylum, and Parole System (RAPS)
�   Enterprise Performance Analysis System (ePAS)
�   National File Tracking System (NFTS)
�   Asylum Pre-Screening System (APSS)
�   USCIS Enterprise Service Bus (ESB)
�   Biometrics Benefits Support System (BBSS)
�   Enterprise Citizenship and Immigration Service Centralized Operational Repository (eCISOR)
�   Customer Relationship Interface System (CRIS)
�   FD 258 Enterprise Edition and Mainframe
�   Site Profile System (SPS)

    Information Technology Management Letter for the USCIS Component of the FY 2010 DHS 

                                 Financial Statement Audit 

                                           Page 8 

                                                                                            Appendix A
                                Department of Homeland Security
 

                       United States Citizenship and Immigration Services
 

                            Information Technology Management Letter
                                       September 30, 2010

Federal Financial Management System (FFMS)
The FFMS is a CFO designated financial system and certified software application that conforms to OMB
Circular A-127 and implements the use of a Standard General Ledger for the accounting of agency
financial transactions. It is used to create and maintain a record of each allocation, commitment,
obligation, travel advance and accounts receivable issued. It is the system of record for the agency and
supports all internal and external reporting requirements. FFMS is a commercial off-the-shelf financial
reporting system and is built on Oracle 9i Relational Database Management System running off an IBM
9672 Mainframe with ZOS 1.4 platform. The FFMS operating system operates off an IBM ZOS, Version
1.4 Mainframe Server and Microsoft Windows 2000 report servers protected by firewalls. It includes the
core system used by accountants, FFMS Desktop that is used by average users, and a National Finance
Center (NFC) payroll interface. As of July 2010, the FFMS mainframe component and two network
servers are hosted at the DHS DC2 facility located in Clarksville, Virginia. Prior to July, the system was
housed at Department of Commerce located in Springfield, VA. FFMS currently interfaces with the
following systems:
�	 Direct Connect for transmission of DHS payments to Treasury
�	 Fed Travel
�	 The Biweekly Examination Analysis Reporting (BEAR) and Controlling Accounting Data Inquiry
   (CADI), for the purpose of processing NFC user account and payroll information.
�	 The Debt Collection System (DCOS)
�	 Bond Management Information System (BMIS) Web

ICE Network
The ICE Network, also known as the ADEX E-mail System, is a major application for ICE and other
DHS components, such as the USCIS. The ADEX servers and infrastructure for the headquarters and
National Capital Area are located on the third floor of the Potomac Center North Tower in Washington,
DC. The ICE Network utilizes a hybrid mesh/hub and mesh network design to maximize redundancy
throughout the network. ICE operates off of Dell PowerEdge 2950, HP ProLiant DL 385 Server, HP
ProLiant BL45p Server Blade, HP BL 25P Blade Server, and EMC Symmetrix DM. ADEX has
implemented Microsoft Windows 2003 Enterprise Server operating system to provide directory, domain
control, and network services to clients. For security purposes, ADEX has implemented firewalls and a
logical Layer-3 encrypted overlay network through the use of Generic Routing Encapsulation (GRE) and
IPSec tunneling. ADEX currently interfaces with the following systems:
�	 Diplomatic Telecommunications Service Program Office (DTSPO) ICENet Infrastructure




   Information Technology Management Letter for the USCIS Component of the FY 2010 DHS 

                                Financial Statement Audit 

                                          Page 9 

                                                                           Appendix B
                         Department of Homeland Security
 

                United States Citizenship and Immigration Services
 

                     Information Technology Management Letter
                                September 30, 2010




                                  Appendix B 

FY 2010 Notices of IT Findings and Recommendations at USCIS 





Information Technology Management Letter for the USCIS Component of the FY 2010 DHS 

                             Financial Statement Audit 

                                      Page 10 

                                                                                           Appendix B
                                Department of Homeland Security
 

                       United States Citizenship and Immigration Services
 

                            Information Technology Management Letter
                                       September 30, 2010




Notice of Findings and Recommendations (NFR) – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on the
Department of Homeland Security (DHS) Consolidated Independent Auditors’ Report.

      1 – Not substantial 

      2 – Less significant 

      3 – More significant 


The severity ratings indicate the degree to which the deficiency influenced the determination of severity
for consolidated reporting purposes.

These rating are provided only to assist the DHS in prioritizing the development of its corrective action
plans for remediation of the deficiency.




   Information Technology Management Letter for the USCIS Component of the FY 2010 DHS 

                                Financial Statement Audit 

                                         Page 11 

                                                                                                                                 Appendix B
                                               Department of Homeland Security
 

                                      United States Citizenship and Immigration Services
 

                                           Information Technology Management Letter
                                                      September 30, 2010

                                       Notice of Findings and Recommendations – Detail


 NFR                                                                                                                     New     Repeat   Severity
                               Condition                                          Recommendation
 #No.                                                                                                                    Issue    Issue    Rating
CIS-IT­   During the FY 2010 financial statement audit, we         The USCIS Office of Information Technology                      X         3
 10-01    performed inquiry follow-up to determine the status of   (OIT) will finalize the CLAIMS 3 LAN Account
          this weakness and learned that the access roles at the   Management Procedures that address account
          National Benefits Center (NBC) for CLAIMS3 LAN           identification,   set-up,  recertification, and
          have not be defined and documented. USCIS has            termination and access request form maintenance.
          begun some corrective action; however, these issues      These procedures reflect how all CLAIMS 3 LAN
          have not been fully remediated.                          accounts will be managed at each facility that
                                                                   utilizes the CLAIMS 3 LAN.
CIS-IT­   During the FY 2010 financial statement audit, we         The USCIS OIT will continue to review CLAIMS                    X          3
 10-02    performed inquiry follow-up to determine the status of   3 LAN accounts for those that have been inactive
          this weakness and learned that the weakness has not      for 45 days manually and to remove user’s that
          been remediated for CLAIMS3 LAN periodic user            appear on the Office of Human Capital and
          access reviews. USCIS has begun some corrective          Training (HCT) attrition bi-weekly list. OIT will
          action; however, these issues have not been fully        finalize the CLAIMS 3 LAN Account
          remediated.                                              Management Procedures that address account
                                                                   identification,    set-up,    recertification, and
                                                                   termination and access request form maintenance.
                                                                   OIT will continue to work with the OIT Account
                                                                   Management Group, the IT Project Manager and
                                                                   each installation site to recertify CLAIMS 3 LAN
                                                                   accounts and ensure a current and valid access
                                                                   request form is filed. OIT will continue to work
                                                                   with HCT to ensure their exit clearance process
                                                                   includes procedures to promptly notify OIT when
                                                                   employees leave or transfer. OIT will also finalize
                                                                   the USCIS Account Management, Management
                                                                   Directive (Agency Policy).
CIS-IT­   During the FY 2010 financial statement audit, we         The USCIS OIT will finalize the CLAIMS 3 LAN                    X          2
 10-03    performed inquiry follow-up to determine the status of   and CLAIMS 4 Account Management Procedures
          the prior year NFR and learned that the weakness still   that address account identification, set-up,

  Information Technology Management Letter for the USCIS Component of the FY 2010 DHS Financial Statement Audit 

                                                     Page 12 

                                                                                                                                   Appendix B
                                               Department of Homeland Security
 

                                      United States Citizenship and Immigration Services
 

                                           Information Technology Management Letter
                                                      September 30, 2010

 NFR                                                                                                                       New     Repeat   Severity
                               Condition                                           Recommendation
 #No.                                                                                                                      Issue    Issue    Rating
          exist for incomplete or inadequate access request         recertification, and termination and access request
          forms for CLAIMS 3 LAN and CLAIMS 4. USCIS                form maintenance. OIT will continue to work with
          has begun some corrective action; however, these          the OIT Account Management Group, the IT
          issues have not been fully remediated.                    Project Manager and each installation site to
                                                                    recertify CLAIMS 3 LAN and CLAIMS 4
                                                                    accounts and ensure a current and valid access
                                                                    request form is filed.
CIS-IT­   In FY 2009, KPMG performed an inspection of a             We recommend USCIS management issue and                          X          2
 10-04    sample of personnel that had terminated/transferred       adhere to exit clearance policies and procedures to
          from their employment with USCIS during the fiscal        be followed in the event of transfer, termination or
          year. KPMG requested evidence that exit clearance         separation of federal and contract personnel.
          forms were completed for each employee to determine       Resources should be made available to
          USCIS        management’s       compliance       with     communicate the updated procedures to personnel,
          termination/transfer procedures.        Of the 28         train mission support staff who have a critical role
          terminated/transferred USCIS personnel sampled,           in the updated process, and enforce and monitor
          evidence of compliance with exit clearance procedures     compliance with the exit procedures and policies.
          could not be provided for 19 employees.

          During the FY 2010 financial statement audit, we
          learned that USCIS Human Resource Division revised
          the existing terminated/transferred procedures for exit
          processing; however, the procedures have not been
          approved nor implemented.
CIS-IT­   During the FY 2010 financial statement audit, we          The USCIS OIT will finalize the USCIS Media                      X          1
 10-05    performed inquiry follow-up to determine the status of    Protection Management Directive and the USCIS
          this weakness and learned that equipment and media        Media Protection Procedures and ensure they are
          policies and procedures are not current. USCIS has        readily available to USCIS personnel. OIT will
          begun some corrective action; however, these issues       continue to work with the Office of Administration
          have not been fully remediated.                           to ensure there is a standardize process to label,
                                                                    track, sanitize, refurbish, and/or destroy USCIS
                                                                    media using approved equipment and software.

CIS-IT­   During KPMG’s internal vulnerability assessment of        USCIS will monitor the Mission Action Plans             X                   3
 10-06    FFMS performed in August 2010, KPMG identified            (MAP) of the associated ICE NFRs: IT-10-12, IT­

  Information Technology Management Letter for the USCIS Component of the FY 2010 DHS Financial Statement Audit 

                                                     Page 13 

                                                                                                                                   Appendix B
                                                Department of Homeland Security
 

                                       United States Citizenship and Immigration Services
 

                                            Information Technology Management Letter
                                                       September 30, 2010

 NFR                                                                                                                       New     Repeat   Severity
                               Condition                                            Recommendation
 #No.                                                                                                                      Issue    Issue    Rating
          several High/ Medium Risk vulnerabilities, related to      10-13, IT-10-14, IT-10-15 and request periodic
          the following:                                             status updates.
          � FFMS mainframe production databases were
               installed and configured without baseline security
               configurations, including the USCIS Oracle
               instance
          � FFMS servers have missing or inadequate patches

          In addition, we found physical safeguard weaknesses
          at the Clarksville Data Center (DC2), which impact
          USCIS operations. Specifically, we determined the
          following:
               � Re-entry procedures after an emergency have
                   been implemented; however, the procedures
                   are not documented.
               � FFMS server is inappropriately marked with
                   a label that identifies the application/data on
                   the server.
CIS-IT­   During the FY 2009 financial statement audit, KPMG         The USCIS OIT will continue to evaluate the risk                X          2
 10-07    performed inspection of the CLAIMS 4 password              imposed on the CLAIMS 4 system by not
          configuration settings. Per our inspection, KPMG           changing the password history from 6 to 8. If it is
          determined that CLAIMS 4 has been configured to            deemed that the risk is low, OIT will submit a
          prohibit password reuse for 6 generations, which does      Waivers and Exceptions Request Form to the DHS
          not meet the DHS 4300A requirement of 8 password           CISO. If the risk is deemed medium or high, OIT
          generations. During the FY 2010 financial statement        will continue to implement the password changes
          audit, we performed inquiry follow-up to determine         as outlined in the FY09 USCIS OIT Mission
          the status of this weakness and learned that the           Action Plan (MAP).
          weakness has not been remediated for CLAIMS4
          password configuration. USCIS has begun some
          corrective action; however, these issues have not been
          fully remediated.




  Information Technology Management Letter for the USCIS Component of the FY 2010 DHS Financial Statement Audit 

                                                     Page 14 

                                                                                                                                    Appendix B
                                                Department of Homeland Security
 

                                       United States Citizenship and Immigration Services
 

                                            Information Technology Management Letter
                                                       September 30, 2010

 NFR                                                                                                                        New     Repeat   Severity
                               Condition                                            Recommendation
 #No.                                                                                                                       Issue    Issue    Rating
CIS-IT­   During the FY 2010 financial statement audit, we           The USCIS OIT will continue to finalize the                      X          1
 10-08    performed inquiry follow-up to determine the status of     Media Protection Procedures for the Vermont
          this weakness and learned that ineffective safeguards      Service Center. OIT will test VSC’s OIT Visitor
          still exist over physical access to sensitive facilities   Policy and Procedures to ensure they address the
          and resources. USCIS has begun some corrective             physical security concerns listed in the condition
          action; however, these issues have not been fully          statement.
          remediated.
CIS-IT­   In FY 2009, we determined that the USCIS lacks             The OIT will continue to finalize the USCIS Audit                X          2
 10-09    policies and procedures over audit logging of              and Accountability Management Directive and
          application and server audit logs for CLAIMS 3 LAN         implement enterprise audit logging software. OIT
          and CLAIMS 4 system. Specifically, we learned that         will ensure CLAIMS 3 LAN and CLAIMS 4 audit
          CLAIMS3 LAN generates audit logs; however, the             logs are provided to the enterprise audit logging
          USCIS does not require that the logs are reviewed or       software for analysis. Once the integration of
          maintained. In addition, we determined that the USCIS      CLAIMS 3 LAN and CLAIMS 4 and the
          does not have policies or procedures in place for          enterprise audit logging software is complete,
          maintaining and reviewing the audit logs.           For    develop CLAIMS 3 LAN and CLAIMS 4 audit
          CLAIMS4, we noted that CSC contractors capture and         and accountability procedures.
          review the logs of user access to CLAIMS4; however,
          no reviews of significant changes in the application or
          to system files are conducted. Additionally, no
          policies or procedures have been established for
          conducting and monitoring the audit log reviews.

          During the FY 2010 financial statement audit, we
          learned that USCIS has begun some corrective action;
          however, these issues have not been fully remediated.
          Therefore, this finding is being reissued.
CIS-IT­   During the FY 2010 financial statement audit, we           The USCIS OIT will finalize the CLAIMS 4                         X          2
 10-10    performed inquiry follow-up to determine the status of     Account Management Procedures that address
          this weakness and learned that weak logical access         account identification, set-up, recertification, and
          controls still exist over CLAIMS 4. USCIS has begun        termination and access request form maintenance.
          some corrective action; however, these issues have not     OIT will continue to work with the OIT Account
          been fully remediated.                                     Management Group, the IT Project Manager and
                                                                     each installation site to recertify CLAIMS 4
                                                                     accounts and ensure a current and valid access
  Information Technology Management Letter for the USCIS Component of the FY 2010 DHS Financial Statement Audit 

                                                     Page 15 

                                                                                                                                 Appendix B
                                               Department of Homeland Security
 

                                      United States Citizenship and Immigration Services
 

                                           Information Technology Management Letter
                                                      September 30, 2010

 NFR                                                                                                                     New     Repeat   Severity
                               Condition                                          Recommendation
 #No.                                                                                                                    Issue    Issue    Rating
                                                                   request form is filed. OIT will also finalize the
                                                                   USCIS Account Management, Management
                                                                   Directive (Agency Policy).
                                                                   OIT will continue to review CLAIMS 4 accounts
                                                                   for those that have been inactive for 45 days
                                                                   manually and to remove users that appear on the
                                                                   Office of Human Capital and Training (HCT)
                                                                   attrition bi-weekly list. OIT will continue to work
                                                                   with HCT to ensure their exit clearance process
                                                                   includes procedures to promptly notify OIT when
                                                                   employees leave or transfer.
                                                                   The HCT must finalize Exit Clearance Process
                                                                   policies and procedures and ensure that these
                                                                   documents are disseminated agency-wide.
                                                                   Specifically, ensure that contracting officers,
                                                                   contacting officers’ technical representatives,
                                                                   managers and supervisors are informed about these
                                                                   documents and understand their importance.
CIS-IT­   During the FY 2010 financial statement audit, we         The USCIS OIT will continue to review CLAIMS                    X          2
 10-11    performed inquiry follow-up to determine the status of   3 LAN accounts for those that have been inactive
          this weakness and learned that CLAIMS3 LAN still         for 45 days manually and to remove user’s that
          lacks policy and procedures for separated employees.     appear on the HCT attrition bi-weekly list. OIT
          USCIS has begun some corrective action; however,         will finalize the CLAIMS 3 LAN Account
          these issues have not been fully remediated.             Management Procedures that address account
                                                                   identification,    set-up,    recertification, and
                                                                   termination and access request form maintenance.
                                                                   OIT will continue to work with HCT to ensure
                                                                   their exit clearance process includes procedures to
                                                                   promptly notify OIT when employees leave or
                                                                   transfer. OIT will also finalize the USCIS Account
                                                                   Management Directive (Agency Policy).
                                                                   The HCT must finalize Exit Clearance Process
                                                                   policies and procedures and ensure that these
  Information Technology Management Letter for the USCIS Component of the FY 2010 DHS Financial Statement Audit 

                                                     Page 16 

                                                                                                                                    Appendix B
                                                Department of Homeland Security
 

                                       United States Citizenship and Immigration Services
 

                                            Information Technology Management Letter
                                                       September 30, 2010

 NFR                                                                                                                        New     Repeat   Severity
                               Condition                                            Recommendation
 #No.                                                                                                                       Issue    Issue    Rating
                                                                     documents are disseminated agency-wide.
                                                                     Specifically, ensure that contracting officers,
                                                                     contacting officers’ technical representatives,
                                                                     managers and supervisors are informed about these
                                                                     documents and understand their importance.
CIS-IT­   During the FY 2010 financial statement audit, we           For initial information security awareness training,             X          2
 10-12    learned that the IT security awareness training            OIT will continue to update and provide training
          weakness has not been remediated, therefore, this          materials for the HCT New Employee Orientation
          finding was reissued.                                      Program (NEOP). The HCT should continue to
                                                                     implement the NEOP agency-wide. HCT must
                                                                     provide OIT a monthly report of all new hires and
                                                                     the date they completed initial information security
                                                                     awareness training during NEOP.

                                                                     For annual information security awareness
                                                                     refresher training, OIT will continue to use the
                                                                     Department of Status (DOS) Computer Security
                                                                     Awareness Training (CSAT) tool to provide
                                                                     information security awareness training to all
                                                                     USCIS employees with access to agency
                                                                     information systems.
CIS-IT­   During roll forward testing for the FY 2010 financial      OIT will finalize and issue the USCIS MD on             X                   2
 10-13    statement audit, KPMG performed inspection of              Information System Account Management. The
          ADEX access request forms. Per our inspection,             MD stipulates polices on records management of
          KPMG determined that one out of the forty-five             access requests and standardizes the USCIS
          access forms requested was not provided.                   Network Access Request Form.
          Additionally, three out of the forty-five access forms
          requested were created on the same day of the request.
CIS-IT­   ICE ­ During KPMG’s internal vulnerability                 USCIS will monitor the Mission Action Plan                       X          3
 10-14    assessment efforts of ICE’s ADEX network servers           (MAP) of the associated NFR# ICE-IT-10-16 and
          and devices performed in August 2010, KPMG                 request periodic status updates.
          identified a default installation and configurations for
          the Hot Standby Router Protocol (HSRP) on the Cisco
          routers.

  Information Technology Management Letter for the USCIS Component of the FY 2010 DHS Financial Statement Audit 

                                                     Page 17 

                                                                                                          Appendix B
                                             Department of Homeland Security
 

                                    United States Citizenship and Immigration Services
 

                                         Information Technology Management Letter
                                                    September 30, 2010

NFR                                                                                             New       Repeat   Severity
                            Condition                                 Recommendation
#No.                                                                                            Issue      Issue    Rating
       USCIS - Although USCIS does not have direct
       responsibility for the controls over ADEX and ICE
       financial applications, USCIS does have a
       responsibility to proactively manage its service
       provider relationship with ICE. USCIS should require
       ICE to provide a detailed Corrective Action Plan
       (CAP) containing the planned remediation of the
       security vulnerabilities affecting USCIS data integrity.




 Information Technology Management Letter for the USCIS Component of the FY 2010 DHS Financial Statement Audit 

                                                    Page 18 

                                                                                   Appendix C
                              Department of Homeland Security
 

                     United States Citizenship and Immigration Services
 

                          Information Technology Management Letter
                                     September 30, 2010




                                      Appendix C 


 Status of Prior Year Notices of Findings and Recommendations and 

                           Comparison to 

  Current Year Notices of Findings and Recommendations at USCIS 





Information Technology Management Letter for the USCIS Component of the FY 2010 DHS Financial 

                                      Statement Audit 

                                           Page 19 

                                                                                                Appendix C
                               Department of Homeland Security
                      United States Citizenship and Immigration Services
                           Information Technology Management Letter
                                      September 30, 2010


                                                                                           Disposition
 NFR No.                                  Description                                Closed         Repeat

CIS-IT-09-01   Inefficient definition and documentation of access roles at the
                                                                                                     10-01
               National Benefits Center for CLAIMS3 LAN
CIS-IT-09-02   Periodic user access reviews are not performed for CLAIMS3
                                                                                                     10-02
               LAN users.
CIS-IT-09-03   Incomplete or inadequate access request forms for CLAIMS3
                                                                                                     10-03
               LAN and CLAIMS4 system users.
CIS-IT-09-04   Periodic Active Directory Exchange system administrator access
                                                                                       X
               reviews are not performed at USCIS.
CIS-IT-09-06   Weak data center access controls exist                                  X
CIS-IT-09-07   Equipment and media policies and procedures are not current.
                                                                                                     10-05
CIS-IT-09-08   Weak access controls for security software exist within the
                                                                                       X
               Password Issuance and Control System.
CIS-IT-09-09   Weak access controls exist in CLAIMS3 LAN.                              X
CIS-IT-09-10   Weak password configuration controls around CLAIMS4.                                  10-07
CIS-IT-09-11   Background investigations are not conducted in a timely manner.         X
CIS-IT-09-12   Procedures for transferred/terminated personnel exit processing
                                                                                                     10-04
               are not finalized
CIS-IT-09-13   Ineffective safeguards over physical access to sensitive facilities
                                                                                                     10-08
               and resources
CIS-IT-09-14   Weak access controls exist within FFMS                                  X
CIS-IT-09-15   Lack of policies and procedures for CLAIMS 3 LAN and
                                                                                                     10-09
               CLAIMS 4 audit logs
CIS-IT-09-16   Weak logical access controls exist over CLAIMS 4                                      10-10
CIS-IT-09-17   Training for IT security personnel is not mandatory                     X
CIS-IT-09-18   Lack of policies and procedures for separated CLAIMS3 LAN
                                                                                                     10-11
               accounts
CIS-IT-09-19   IT Security Awareness Training compliance is not monitored
                                                                                                     10-12
CIS-IT-09-20   Default installation and configuration of Cisco routers on ICE
                                                                                                     10-14
               Network Impact USCIS Operations.




    Information Technology Management Letter for the USCIS Component of the FY 2010 DHS 

                                 Financial Statement Audit 

                                          Page 20 

                                                                                                                              Appendix D
                                          Department of Homeland Security 

                                       Immigration and Customs Enforcement 

                                      Information Technology Management Letter
                                                 September 30, 2009

                                                                           I ....... 1"..."._ "'Il_la"'~.",
                                                                           I ..   (ir"~.,,   . _ lor    ..,,,,,~    ...... .."oc,
                                                                           1JM<.>:uJ'''''~      "'f.-""'...    Or
                                                                           \10_ """" III       :"l,,~



                                                                           U.S.Otlzenship
                                                                           and Immigranon
                                                                           Services




 Fcbruary 24. 2011

 Memorandum
 1'0:            Frank DefTer
                 AssiSlanl Inspector General for Information Tcchnolog)' Audits
                 U.S. Department of I lomdand Sc<:urity

                 Mark Sch\\urtL
                 Chicflnfonnulion Offil:cr



                                  .1=
                 U.S. Citi.....cnship lind Immigration S...rvie••::.

                 Timothy Rosado~~
                 Acting.. Chief         OniC\.."'r
                 U.S. Citizenship and Immigralion s..'n..ic(..":.

 SUBJECT: Informalion Technology Management Lcllt.'T for the USCIS ComJXmcllt of
          the FY 2010 DIIS Financial Slatemeni Audil

 We \\ould like 10 thank ~ou lor the opportunity to review and comment on the Information
 Tt.ochnology (IT) Muna~""l1Iellt Leller lor Ihe U.S. Cili7...enship and Immigrmion Services (Use IS)
 CumpoTk:llt for th.... FY 20 I0 DCpartllll.:llt of Homeland Socuril~ (OilS) Financial SlalcmCni
 Audit. USCIS "-'quesls Ihat your Office mak.... the fol1u\\ing c1mllges to the Independcnl
 Auditor's Report.

 [xccpt for the items noted below. USCIS agn.."t."S und accepls all finding. comments. and
 conclusions cxpressed in this ".'pon.

          FINDI1'\'GS CONTRIBUTING TO A MATERIAL WEAKNESS IN IT AT TilE
                                DEI'ARTM8\.TT LEVEL

 O",dilion..~;Durillg thc FY 2010 DHS Financial Slatement AudiL we identitied the follo",lOg
 USCJS IT and financial system control dcficicnci..-s that in the aggregale significantl~ oontnbutc
 10 the material weakness at the Dcpartmentlc\.c1.

 Configuration Man.'lgemCllt

     •   Sccurit) eonfigur.ltion munagcnll:.'m control deficiencies on ADEX. These contml
         deficiencies included default installation and confi];urution sclling.s on the Cisco mute".



Information Technology Management Letter for the USCIS Component of the FY 2010 DHS Financial
                                      Statement Audit 

                                           Page 21 

                                                                                                                     Appendix D
                                              Department of Homeland Security 

                                           Immigration and Customs Enforcement 

                                          Information Technology Management Letter
                                                     September 30, 2009

   Intonnation Technology Management Letter for the lJSCIS Component of the FY 2010 Dl-IS
   Finaneinl Stmclllcnt Audit
   Pnge 2


   USCIS   SU~l.!csto:d Ch'lllgC:


       •   Secllrity cnnligLlTation manngcmcm control dcficicTlcie,.on ADEX. These control
           l.kficiclll;ies indut.l\.-"lJ default installation and configuration sctti ngs on IC1:' s Ci5CO
           rout<.:rs.

   Rational: The indL'pcndcnt auditors onl)< pcrfonm:d 11l.·twork anu device: testing on I('E-s
   equipment u!>ing: sonw:tr<: :->canning tools. USCIS doc~ nol ha"c tlK' ovo.:r.,ight to manage lCE's
   installation of equipment used for shared services.

   Aect.'Xs Control

       •   The following aecowlt managcllwnt control                dl:.·ficiCI~('ieS()\ierADEX.   CLAIMS:; LAN.
           and CI.AIMS 4:

               o      User access is not documented and mamtmncd for AUL:X. CLAIMS 3 LAN. and
                   CLAlM~ ~,


       •   Laek of processes in place for !oianiti:t..atiun of c'I uipmem and media.

   lISCIS Suggested Change:

       •   llw following account management conlrol deficiencies over ADEX. CLA tMS                       j   LAN.
           and CLAIMS 4:

               "      I lscr   lI{~ce"s   t"'L'tlllcst ronns are nut consistelltl:lo' nnintuined for ADEX_ CLAIMS :;
                      LA!'. and CLAIMS 4.

       •   Outd.ated d<x'·uIllI:nl..::d proco:sses lor s.1niti7....11ion of equipment and media.

   I\ational: For all t1l1"'..--": inlonmtlioll s)slcms. USCIS PfO\ ide:d ro,lgbly 90 percent of all rOn1~S
   requestcd by the indcpend<.::nt auditor. User access n.:que:;ts are documented on USCIS Fonns
   (j·llfiO and O-R72. IJSCIS agu.·cs that it nc:oos to improve the maintenance process ot'these
   fonns so that the) are ready available upon rL'quL"SL

   The ()nice of Information Tcchnology (OIT) purchast..-d approximately 100 dcgaulisers and
   Im:dil1 :.uuiti:t...atiun :.oftware to cn:>urc Ilwdi,1 i:; :;aoiliLCd and de,gau5scd 'when appropriate. orl"
   has dmll US-CIS Mcdia lJrotc,:ti{m jXllicit."S and procedures that support the implementation of
   OIlS and National Institute of Standards and Technology policies. procedures. and stal1dards.
   USCIS has media protection processes: hovl.c"cr. our doeumenwtion hu:; not bL"Cn finalized.

   Securit\ Management

       •   IT Security training is not mandutory nOr is compliance monitorcd.




Information Technology Management Letter for the USCIS Component of the FY 2010 DHS Financial
                                      Statement Audit 

                                           Page 22 

                                                                                                             Appendix D
                                      Department of Homeland Security
 

                                   Immigration and Customs Enforcement 

                                  Information Technology Management Letter
                                             September 30, 2009

  lnfonnalion TechnQlogy M.mOlgcm~n1 Leller fN the USC1S Cumpon.:'nl                  ofth~   FY 2010 DHS
  Financial Stalement Audit
  Pagc 1

  USCI:;; SuggC"lcd Chanl!C:

      •   IT Security Awan.:ncss training completion" an: n(,1 COlbiM,.. ntl~ 1ll0nitoll.-d.

  Rational: USCIS' Oflice oflluman CapiLaI and I ra'ning (Ilel ) mamtains u Learning
  \-lana~cmcnt System (LMS) that:


      •   maintf..ins all training rr:cord5 for USCIS emph»)cc.s lind conlruetors.
      •   provido.--:. computcr-bas;;.'d tr.nning COurseS. nr.d
      •   maint.:;ins employet.."S mandatory training plans.

  The LM' is c<lnfigured I[) ha... ~ the USCI"; ComplllCf Security Awarem.'SS rr.sining (CSA-n
  course on c\-el") employee's mandatory lraininl! plan. On April 9. 2010. the LJ. CIS Acting Chi...,:-
  Information OlTicer i~ued the Mand3lo~' CSAT policy R'quiring allLJSC S employees anJ
  controlctors to complete CSt\ T and enfo~ing the n:mo.. ul of network mlet o:m"i I ;tf:l'"r"" for tho.....~
  lh:.ll do r.ot co-nply with th...• policy.

  On June 23.2010.01 r implemented th<.: Dcpartmcm OfSlutc CSAT ""cb-b~-d tool to handle al
  tracking and monitoring orCSAT completions. I his pro<!u~t uutOIll..ti~llll'f monitors und notifies.
  employees when to complete CSAT. En1ployees 31'\' senl ,,,,cel:.I)' em:til reminders until the
  tmining b completl.-d.

  Prior tu the impll'l1lCnttllion of the DOS CSAT_ (he USCIS ACadem} monitored and trdek-cd
  CSAT comph:Liulls in 111<' Ll'vlS. T ruining Coord ina(o...... lhrn.. ~hmll thr :lCf'nl'") were re"pon."ihlc
  for cn:>uring all ....·l11plo)-<.:...s curnplct<--d CSAT in Ihe LMS. 'lllC DOS CSA r product eliminates
  th;,: nmnuu) trul,;"'in~ of CSAT completion:> by Training Coordinnrors.

  USCIS i.s cOl1l1nitt....-d to ,,:solving all control delicier.cies and \V~nkncsse.s identified in tile :..udit
  and Iw\"c prer:un:d Mission Action Plans and Plan ofi\ction lind /'vlile.sIOn<.:.s 10 re-solve and
  imrmvc the Agcncy's information technology contr<.lls.

  IlselS appreciates the cooperation and rcspcctthat iuur :.tafTprovid<.:d during th..· cuurse of the
  audit and looks forward to continuing our strollB working relationship \\ith your oOiw.




Information Technology Management Letter for the USCIS Component of the FY 2010 DHS Financial
                                      Statement Audit 

                                           Page 23 

                             Department of Homeland Security
 

                          Immigration and Customs Enforcement 

                         Information Technology Management Letter
                                    September 30, 2009


                    Report Distribution

                    Department of Homeland Security

                    Secretary
                    Deputy Secretary
                    General Counsel
                    Chief of Staff
                    Deputy Chief of Staff
                    Executive Secretariat
                    Under Secretary, Management
                    Director, USCIS
                    DHS Chief Information Officer
                    DHS Chief Financial Officer
                    Associate Director-Management, USCIS
                    Acting Chief Financial Officer, USCIS
                    Acting Chief Information Officer, USCIS
                    Chief Information Security Officer
                    Assistant Secretary for Office of Policy
                    Assistant Secretary for Office of Public Affairs
                    Assistant Secretary for Office of Legislative Affairs
                    DHS GAO OIG Audit Liaison
                    Chief Information Officer, Audit Liaison
                    USCIS Audit Liaison

                    Office of Management and Budget

                    Chief, Homeland Security Branch
                    DHS OIG Budget Examiner

                    Congress

                    Congressional Oversight and Appropriations Committees, as appropriate




Information Technology Management Letter for the USCIS Component of the FY 2010 DHS Financial
                                      Statement Audit
                                           Page 24
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
